Office of Inspector General


September 18, 2012

MEMORANDUM

TO:                  M/OAA, Chief Acquisition Officer and Director, Aman S. Djahanbani
                     M/AA, Senior Advisor, Tracy Blackburn

FROM:                IG/A/PA Director, Steven Ramonas /s/

SUBJECT:             Survey of USAID’s Efforts to Address Its Backlog of Expired Awards
                     (Report Number 9-000-12-002-S)

This memorandum transmits our final report on the subject survey. In finalizing the report, we
considered your comments and included your response in Appendix II.

The report contains four recommendations to help USAID manage its backlog of expired awards
awaiting closeout. Based on your response to the draft report, we determined that management
decisions have been reached on all four recommendations. Please provide the Audit
Performance and Compliance Division of USAID’s Office of the Chief Financial Officer with
evidence of final action to close the recommendations.

Thank you for the cooperation and courtesy extended to the audit staff during this survey.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
SUMMARY
USAID’s Office of Acquisition and Assistance (OAA) implements programs by issuing and
administering contracts, grants, and cooperative agreements, collectively referred to as
“awards”. OAA’s work is essential to the success of USAID’s development objectives since the
Agency executes virtually all of its international development and humanitarian assistance
programs through these instruments.

The closeout process verifies that all administrative matters are completed for an award that is
“physically complete.”1 Ideally, this process would begin 3 months before an award ends.
Agreement or contracting officers review official award files to verify that they are complete and
to determine whether excess residual funds can be deobligated. The officer should begin
closeout no later than 3 months after the award is physically complete.

USAID officials acknowledged the Agency’s backlog of incomplete closeout and deobligation
activities as an internal control weakness in its fiscal year (FY) 2010 financial report. USAID
had a significant amount of program funds that might not be recovered without steps to address
(1) the backlog of required contractor audits and (2) insufficient funds for closeout and
deobligation activities.

According to the report, as of July 2010, USAID had nearly $252 million in program funds and
$13 million in operating expenses that could be deobligated. Agency officials later said the
report inadvertently overstated the amount of funds that could be deobligated and that the right
amount was probably closer to $120 million. The Agency included this problem as a significant
deficiency in its FY 2011 financial report.

The delay in closing out expired awards is a concern because it hinders USAID from complying
with the Federal Acquisition Regulations (FAR). If the Agency does not take steps to address
the backlog of contractor audits and insufficient funding of closeout and deobligation activities, it
also risks losing the use of program funds. Moreover, the Agency does not gain much by
performing audits many years later when important evidence could have been misplaced, lost,
or not easily retrieved. Companies may have gone out of business, making it impossible to
collect any refunds or offsets due the government. The delay allows inefficient, fraudulent, or
vulnerable practices to go undetected. Finally, business practices or leadership may change,
making the recommendations irrelevant.

The Office of Inspector General’s (OIG’s) Performance Audit Division conducted this survey to
determine whether USAID’s plans and actions are sufficient to mitigate the backlog of expired
awards. This survey focused only on expired awards that OAA in Washington, D.C., was
responsible for closing.

1
  According to supplemental guidance for USAID’s Automated Directives System (ADS) 302 and 303, an
award is considered physically complete when “the contractor has completed the contractually required
deliveries, and the Government has inspected and accepted the supplies; or the contractor has
performed all contractually required services, and the Government has accepted these services; and all
option provisions, if any, have expired.” An assistance award is considered physically complete when
“the funding period, or the date of completion as specified in the terms and conditions of the award or in
agency implementing instructions, has expired; or the total award amount has been expended; and the
recipient has complied with all applicable terms and conditions of the award, and the Government has
confirmed compliance.”


                                                                                                        1
The survey concluded that USAID took some actions to address the causes for untimely
closeouts. The Agency also tried to reduce the number and amount of outstanding obligations
and expired awards awaiting closeout. For example, it hired more people for its closeout team.

However, the survey determined that:

   Award closeouts were not completed on time (page 3).

   The backlog of incurred cost audits was large (page 4).

   Agreement or contracting officer’s representatives did not identify excess funds before
   sending awards for closeout (page 5).

Overall, the survey found that USAID’s corrective action memorandum to address the backlog
of awards awaiting closeout as a significant control deficiency was not sufficient. For example,
it did not require OAA to explore alternative closeout procedures when feasible; such
procedures could have helped OAA reduce the backlog of expired contracts and increase the
number of awards that were closed out on time. Nor did the memorandum address whether
OAA could have public accounting firms perform incurred cost audits instead of relying
exclusively on the Defense Contract Audit Agency (DCAA) to perform them. Finally, it did not
address the agreement/contracting officer’s representatives’ roles in reviewing contracts for
excess funds prior to closeout.

To address these deficiencies, the survey recommends that:

1. OAA conduct a feasibility review of alternative closeout actions to improve the timeliness of
   award closeout based on guidance issued by the Office of Federal Procurement Policy and
   other best practices, and document the results (page 4).

2. USAID’s Management Bureau implement a plan to prioritize conducting incurred cost audits
   (page 5).

3. OAA reduce the backlog of incurred cost audits awaiting closeout by implementing a plan to
   contract with certified public accounting firms to supplement DCAA’s efforts to perform
   incurred cost audits when feasible (page 5).

4. OAA document actions to enforce procedures for agreement and contracting officer’s
   representatives to conduct adequate reviews of excess and unneeded funds prior to the
   closeout process (page 6).

Detailed findings follow. The survey’s scope and methodology are described in Appendix I.
Management comments appear in Appendix II, and our evaluation of them is on page 7.




                                                                                              2
SURVEY RESULTS
Award Closeouts Were Not
Completed on Time
Part 4 of the FAR establishes several different time frames and describes numerous steps to
close various types of contracts. The Office of Federal Procurement Policy’s Guide to Best
Practices for Contract Administration identifies many best practices to help program and
contracting officials close contracts more effectively.      For example, it suggests that
organizations establish a separate closeout function to emphasize the importance of contract
closeout. It also suggests using contractors when federal employees are not available.

Furthermore, the guide suggests using quick closeout procedures for cost-reimbursable
contracts when there is no evidence of fraud or waste, the contractor’s performance is good,
and there is no history of unallowable costs.

From 2009 to 2011, OAA’s closeout division reported that it closed almost 1,400 awards.
However, most of these were not closed within the time frames outlined in the FAR. Table 1
shows that closeout actions for nearly two-thirds of all awards during that period took almost
3 years longer than they should have.

USAID provided OAA with additional funding in FY 2011. The office then supplemented its
closeout staff to reduce the number of expired awards awaiting closeout and to reduce the
amount of unliquidated obligations.

               Table 1. Closeout Results by Award Type, 2009-2011 (Unaudited)
                                                                                   Average
                                                 Number With    Percent With
       Type of Award             Number Closed                                     Overage
                                                   Overage        Overage
                                                                                   (Months)
 Grants                                443           228              51              28
 Personal services contracts           441           246              56              15
 Cooperative agreements                164           101              62              26
 Contracts                              21            16              76              60
 Indefinite quantity contracts          99            94              95              57
 Purchase orders                       185           185             100              27
 Schedule orders                        36            36             100              24
 Total                               1,389           906              65              34
Source: DB Consulting Group Inc.

Despite the additional funding, OAA officials said they did not have enough financial resources
or employees to close out awards on time. Therefore, they focused on processing awards with
large, unliquidated balances and hired a contractor, DB Consulting Group Inc., to provide
closeout services.

OAA did not adopt other actions that could have reduced the number of awards awaiting
closeout. For instance, OAA officials acknowledged that the quick closeout procedure is
underutilized for cost-reimbursable contracts.



                                                                                              3
The Agency is required to deobligate and reobligate funds within 4 years after the funds were
made available.2 Otherwise, USAID cannot reobligate these funds as needed. Therefore, we
make the following recommendation.

    Recommendation 1. We recommend that the Office of Acquisition and Assistance
    conduct a feasibility review of alternative closeout actions to improve the timeliness of
    award closeout based on guidance issued by the Office of Federal Procurement Policy
    and other best practices, and document the results.

Backlog of Incurred Cost
Audits Was Large
Incurred cost audits are required for cost-reimbursable contracts to determine the
reasonableness, allowability, and allocability of the costs incurred during an award’s period of
performance. FAR 42.705-2 further notes that a government auditor will establish the final
indirect cost rates for certain business units. Incurred cost rates for USAID are established by
DCAA.

OAA’s backlog of incurred cost audits that DCAA must perform is growing because OAA does
not have sufficient funds to pay for them. According to OAA officials, several years elapse from
when costs are incurred to when DCAA can schedule the audit. For example, OAA scheduled
several FY 2005 audits with DCAA in 2011.

Scheduling audits requires that funds to perform them are available and sufficient, which has
not been the case with OAA in the past several years. The cost of DCAA audits continues to
grow, but the funds OAA has received have not kept pace with the Agency’s needs. Table 2
shows OAA’s funding requirements for incurred cost audits, the amounts OAA has requested,
and those received for FYs 2009 through 2011.

    Table 2. Funding for Incurred-Cost Audits in OAA’s Inventory 2009-2011 (Unaudited)
                                                              Amount ($)
        Funding
                                      2009                       2010                        2011
Required                            6,300,000                  8,900,000                   10,800,000
Requested                           1,500,000                  1,500,000                    2,000,000
Received                              750,000                  1,000,000                    2,700,000
Shortfall                           5,550,000                  7,900,000                    8,100,000

As of December 2011, OAA still had not scheduled 315 audits. OAA officials said they needed
about $11 million for DCAA to conduct those audits—much more than the $2.7 million that it
received. OAA also said it does not ask for the funds necessary to perform the incurred-cost
audits because it knows it will not receive it. For FY 2012, OAA officials said that it would need
about $13 million.



2
 ADS 621.3.11 defines the Section 511 Authority of USAID’s appropriations acts. Since FY 2002, this
authority has allowed most of USAID’s appropriated funds, if initially obligated by the end of their period of
availability, to remain available for deobligation and reobligation for an additional 4 years from when the
availability of funds would otherwise have expired. At the end of those 4 years, the funds expire and are
no longer available for new obligations.


                                                                                                            4
OAA has discussed using accounting firms to conduct the required audits as one way to
manage the growing need for such audits and to supplement DCAA. However, OAA would
need to compare the costs associated with using them to DCAA’s because the firms could be
more expensive.

The Agency has also begun to streamline its implementation and procurement processes under
its USAID Forward reform agenda and intends to increase the number of fixed-price contracts
awarded, when feasible and appropriate. More fixed-price contracts might decrease the
number of awards that require incurred cost audits.

To help mitigate the need for more funds and more effectively manage the inventory of incurred
cost audits, we make the following recommendations.

   Recommendation 2. We recommend that USAID’s Management Bureau implement a
   plan to prioritize conducting incurred cost audits.

   Recommendation 3. We recommend that the Office of Acquisition and Assistance
   reduce the backlog of incurred costs audits awaiting closeout by implementing a plan to
   contract with certified public accounting firms to supplement the Defense Contract Audit
   Agency’s efforts to perform incurred cost audits when feasible.

Excess Funds Were Not
Identified Before Sending
Awards for Closeout
USAID guidance says that agreement or contracting officer’s representatives are required to
use sound financial management practices throughout an award’s performance period by
reviewing and identifying excess and unneeded funds so that those funds can be deobligated
and made available for other purposes. According to USAID’s Deobligation Guidebook, excess
and unneeded funds may be identified in various ways, such as those outlined below:

1. Monitoring performance and management oversight through procurement planning, periodic
   portfolio reviews, and exercises for the Annual Report and Bureau Program Budget
   Submission Program.

2. Requiring that accruals are reported at the end of each quarter.

3. Periodically reviewing unspent balances to identify activities with excess and unneeded
   funds that should be deobligated.

4. Identifying awards to be deobligated from forecasting, spending, and burn-rate reports.

In addition, USAID’s Guidance on Closeout Procedures for Acquisition and Assistance Awards
states that within the last 3 months of the award, the agreement or contracting officer should
determine and deobligate excess funds. Additional agency guidance allows the contracting and
agreement officers to act on requests from their representatives to deobligate excess funds.

In 2011 OAA’s closeout group reported that it deobligated nearly $51 million from 747 awards,
with more than $23 million in pre-close deobligations from 92 awards. Agreement or contracting
officer’s representatives did not identify these excess funds before closeout. Furthermore, 62 of


                                                                                               5
the 92 were for $100,000 or more and totaled more than $22 million, which represented almost
95 percent of all the pre-close deobligations the closeout group handled in FY 2011.
According to senior contracting officials, the agreement or contracting officer’s representatives
did not perform their excess funds review thoroughly before closeout for two reasons:

   Some funds are left to settle post-completion administrative matters, like the negotiation of
   final overhead rates under cost-reimbursable contracts. Instead of having less money on
   hand to use if such matters arise—for which the representatives could be penalized—they
   tend to leave buffers to cover anything unexpected.

   Although agreement or contracting officer’s representatives are required to review awards
   thoroughly for excess funds, they do not have any incentive to do so because the excess
   funds might not be returned to them to use for their programs.

OAA discovered more than $23 million in excess funds in FY 2011. This shows that OAA needs
to review awards comprehensively to identify excess and unneeded funds that could be
deobligated and reprogrammed. These reviews would also prevent OAA from consuming
additional resources for excess funds reviews instead of concentrating on closing expired
awards.

USAID may be able to use its limited resources better by establishing sound financial
management practices. Therefore, to deobligate and reobligate excess funds in a more
efficient, effective manner, we make the following recommendation.

   Recommendation 4. We recommend that the Office of Acquisition and Assistance
   document actions to enforce procedures for agreement and contracting officer’s
   representatives to conduct adequate reviews of excess and unneeded funds prior to the
   closeout process.




                                                                                               6
EVALUATION OF MANAGEMENT
COMMENTS
On the basis of information provided by the Agency’s response to the draft report, we
determined that management decisions have been reached on all four recommendations.

Recommendation 1. OAA has implemented most of the suggestions in the Office of Federal
Procurement Policy’s Guide to Best Practices for Contract Administration. It also agreed to
determine whether it could implement other closeout actions to improve the timeliness of award
closeout.

Recommendation 2. USAID’s Management Bureau is implementing a plan to prioritize
conducting incurred cost audits. As part of the plan, the bureau is considering a proposal to
charge an internal fee to bureaus, offices, and missions for all awards to help support incurred
cost audits in the future.

Recommendation 3. OAA is implementing a plan to address the backlog of incurred cost
audits, which includes contracting with certified public accounting firms to augment DCAA’s
efforts to address the Agency’s backlog of audits. OAA anticipates completing nearly 152 audits
by September 30, 2013.

Recommendation 4. OAA will reinforce the importance of conducting adequate reviews of
excess and unneeded funds prior to the closeout process through additional training and
sending a reminder notice to employees.

The Audit Performance and Compliance Division of USAID’s Office of the Chief Financial Officer
will make a determination of final action on completion of the corrective actions. The Agency’s
written comments on the draft report are included in their entirety as Appendix II.




                                                                                              7
                                                                                     Appendix I



SCOPE AND METHODOLOGY
OIG conducted this survey in accordance with the evidence and documentation standards in
Government Auditing Standards, paragraphs 6.56 and 6.79 through 6.85. Those standards
require that we obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our survey objective. We believe that the evidence
obtained provides that reasonable basis.

The purpose of this survey was to determine whether USAID’s plans and actions were sufficient
to mitigate its backlog of expired awards. The survey focused on awards that expired on or
before September 30, 2008, that OAA was responsible for closing. During the survey, we took
the following steps:

   Assessed the effectiveness and exposure to risk of USAID’s internal control structure over
   its closeout function.

   Determined what guidance dictates the closeout process and the consequences of not
   complying with them. The guidance considered included federal regulations, Agency policy,
   and contracting best practices from other federal entities.

   Determined the type of awards that are in the backlog and obtained documentation to
   support the number of awards that need to be closed out.

   Interviewed Agency officials regarding the effectiveness of and resource levels for the
   closeout function, the history of the backlog, and the constraints that make timely closeouts
   difficult.

   Determined the sufficiency of the actions USAID planned to take to address this problem.

   Researched possible alternatives that could accelerate the closeout process and discussed
   them with USAID officials.

To carry out these steps, we interviewed USAID officials and DB Consulting Group Inc., the
Agency’s closeout contractor that provided us with information used in Table 1. Our interviews
focused on reviewing the backlog as it was reported in the FY 2010 Federal Managers’
Financial Integrity Act Report as a significant deficiency. We relied on data that the Agency
provided and did not test individual awards for compliance with regulations, timeliness, or the
effectiveness of the closeout process. The survey fieldwork was performed in Washington, D.C.




                                                                                              8
                                                                                        Appendix II



MANAGEMENT COMMENTS


                                                                                September 6, 2012

MEMORANDUM

FOR:           Steven Ramonas, IG/A/PA, Director

FROM:          Aman S. Djahanbani, Director, Office of Acquisition and Assistance

SUBJECT:       Survey of USAID’s Efforts to Address Its Backlog of Expired Awards
               Report Number 9-000-12-00X-S

The Bureau for Management, Office of Acquisition and Assistance (M/OAA) has reviewed the
subject survey and appreciates the time and effort that the Office of the Inspector General (OIG)
put forth on this review. We are presenting the following comments for recommendations 1
through 4 under the subject audit report.

Recommendation 1
The auditors recommend that the Office of Acquisition and Assistance conduct a feasibility
review of alternative closeout actions to improve the timeliness of award closeout based on
guidance issued by The Office of Federal Procurement Policy and other best practices.

Response
The M/OAA has already implemented most of the suggestions in the referenced Guide, but
agrees to conduct a feasibility study to determine if there remain any alternative closeout actions
that can be effectively utilized.

Recommendation 2
We recommend that USAID’s Management Bureau implement a plan to prioritize conducting
incurred cost audits.

Response
Funding decisions for fiscal year 2012 are still being finalized but as of this writing, USAID’s
Management Bureau has requested $5 million to help with the backlog of incurred cost audits. It
is anticipated that $2.5 million will be obligated on the Memorandum of Understanding with the
Defense Contract Audit Agency and another $2.5 million will be put on a Blanket Purchase
Agreement under which the services of CPA firms will be used to further address the backlog of
audits. As we move forward, USAID is proposing to create a Working Capital Fund (WCF)
resourced from program funds obtained via a fee-for-service (FFS) model of up to a one percent



                                                                                                    9
                                                                                     Appendix II


charge on estimated annual acquisition and assistance (A&A) obligations worldwide. Under this
FFS model, the Bureau for Management’s Office of Acquisition and Assistance (M/OAA) will
charge an internal fee to bureaus, offices, and missions for all A&A awards. USAID expects to
collect the fee against each A&A award as it is obligated. The Agency plans to use a portion of
the requested Working Capital Fund to support incurred cost audits in the future. The WCF
would also fund the estimated annual cost of incurred cost audits ($3 million) and funding for
expanding the close-out team ($1 million) as part of the total estimated annual cost of all the
activities related to procurement reform. The request for the WCF was included as part of the
President’s FY 2013 budget.

Recommendation 3
We recommend that the Office of Acquisition and Assistance reduce the backlog of incurred-
costs audits awaiting closeout by developing and implementing a plan to contract with certified
public accounting firms to supplement the Defense Contract Audit Agency’s efforts to perform
incurred-cost audits when feasible.

Response
The M/OAA has a robust plan to address the backlog of audits, which includes contracting with
certified public accounting (CPA) firms to supplement the Defense Contract Audit Agency’s
efforts to address the Agency’s backlog of audits. Specifically, it is expected that M/OAA will
receive $2.5 million in funds to be obligated by September 30, 2012 to fund a Blanket Purchase
Agreement (BPA) under which the services of four CPA firms will be available to help address
the backlog of audits. In fact, the BPA was posted on August 21, 2012 and an award is expected
by mid-September. In totality, it is expected that this $5 million in funds will result in the
completion of approximately 152 audits by September 30th, 2013.

Recommendation 4
We recommend that the Office of Acquisition and Assistance document actions to enforce its
procedures for agreement and contracting officer’s representatives to conduct adequate reviews
of excess and unneeded funds prior to the closeout process.

Response
The M/OAA will reinforce the importance of conducting adequate reviews of excess and
unneeded funds prior to the closeout process through the following methods:

(1) highlight in the COR/AOR closeout training modules the steps and timeframes for reviewing
awards prior to expiration and the process for determining excess funding; and
(2) send a reminder notice to the Acquisition &Assistance community stressing the importance
of excess funds reviews prior to the closeout process.




                                                                                              10
